<html>
<title> - [H.A.S.C. No. 115-17] THE CURRENT STATE OF THE U.S. NAVY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 115-17]

                   THE CURRENT STATE OF THE U.S. NAVY

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 16, 2017




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-049                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                          Jodi Brignola, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Cullom, VADM Philip H., USN, Deputy Chief of Naval Operations for 
  Fleet Readiness and Logistics..................................     5
McCollum, VADM Luke M., USN, Chief of Navy Reserve, Commander, 
  Navy Reserve Force.............................................     6
Mulloy, VADM Joseph P., USN, Deputy Chief of Naval Operations for 
  Integration of Capabilities and Resources......................     3

                                APPENDIX

Prepared Statements:

    Mulloy, VADM Joseph P., joint with VADM Philip H. Cullom and 
      VADM Luke M. McCollum......................................    37
    Wilson, Hon. Joe.............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Wilson...................................................    49

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    
    
    
    
    
                       THE CURRENT STATE OF THE U.S. NAVY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Thursday, March 16, 2017.
    The subcommittee met, pursuant to call, at 8:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, I call this hearing of 
the Readiness Subcommittee of the House Armed Services 
Committee to order.
    I am pleased to welcome everyone here today for an 
unclassified session on the current state of U.S. Navy 
readiness. It is particularly fitting, Admirals, for you to be 
here because the staff assistant, Margaret Dean, is one of your 
very prominent and really appreciated and competent members of 
the Navy Reserve. And so we are in good company.
    And of course, I am here, as I have indicated, as a very 
grateful and proud Navy dad. My wife has trained my number-two 
son well to be an orthopedic surgeon in U.S. Navy, formally 
Naples, Italy, now Beaufort, South Carolina. So we are very 
grateful for our family's Navy participation.
    Over the past several weeks, both our full committee and 
subcommittee have received briefings and hearings from leading 
national security experts on the current threat assessment and 
state of the world. All of the service vice chiefs testified on 
the current state of the military. We heard from the Department 
on the quarterly readiness report to Congress. We heard from 
the Government Accountability Office on their assessment of the 
military's readiness, recovery. And most recently, the United 
States Army outlined its current state of readiness.
    Each briefing and hearing further confirms that our 
services are indeed in a readiness crisis. I believe the first 
responsibility of the Federal Government is to provide for the 
security of its citizens. Therefore, it is our responsibility 
as members of this subcommittee to continue to better 
understand the readiness situation of the United States Navy 
and then for us to chart a course which best assists the 
Department of the Navy in correcting these deficiencies and 
shortfalls.
    We now ask the senior leaders of the U.S. Navy and Navy 
Reserves here with us today to provide and be candid in your 
best military judgment advice on the current state of the U.S. 
Navy readiness and its efforts to rebuild where required.
    This morning we are honored to have with us Vice Admiral 
Joseph P. Mulloy, Deputy Chief of Naval Operations for 
Integration of Capabilities and Resources; Vice Admiral Philip 
H. Cullom, the Deputy Chief of Naval Operations for Fleet 
Readiness and Logistics; additionally, Vice Admiral Luke 
McCollum, Chief of Navy Reserve, Navy Reserve Force. We look 
forward to hearing from each of our witnesses as they highlight 
the current state of the Navy.
    And it is particularly fitting today that we have Admiral 
Mulloy and Admiral Cullom, both who are retiring in the next 
couple of months. I would like to thank each of you for your 
decades of service to our Nation, and I know I speak for 
Congresswoman Bordallo that we have extraordinary retirement 
opportunities in South Carolina and Guam.
    [Laughter.]
    And I would like now to turn to our ranking member, 
Madeleine Bordallo, for any remarks she may have.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 35.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. You 
definitely are putting Guam on the map. And thank you for 
convening this important hearing. The chairman is a very good 
friend of mine.
    And this is the second in our series of subcommittee 
hearings examining the state of readiness of our military 
services. And I want to thank you Admiral Mulloy, Admiral 
Cullom, and Admiral McCollum for your service and your 
leadership and for being here today.
    And I stated in previous hearings I value the opportunity 
to hear, just not the Active, but also the Reserve Components 
as we seek to get a full picture of our military readiness.
    We find ourselves today in a familiar situation because of 
deferred investments resulting largely from sequestration and 
continuing resolutions, but also high operational tempos. 
Although it will take longer than a couple of years, I am 
encouraged that the Navy intends to commit itself with the FY 
[fiscal year] 2017 appropriations and presumably the FY 2018 
budget to focus on fixing and then stabilizing readiness, 
especially back home.
    Although longer deployments and high demand and lower 
capacity have stressed our Navy's readiness, we cannot build 
our way out of this problem, that is, its costly and 
unsustainable proportion. Future force structure growth must be 
balanced with substantial investments in both operational, but 
also facility readiness. And to that end, without robust shore 
infrastructure, which has been neglected in favor of fleet 
readiness, we will lose even more ships before that time.
    I will also note that I am pleased that the FY 2017 defense 
appropriations bill, in addition to FY 2017 NDAA [National 
Defense Authorization Act] that passed in December, included 
$9.5 million to enhance dry-docking capabilities in the Western 
Pacific. That small amount of money will help the Navy to 
repair American while maintaining a forward presence in the 
region, and I look forward to working together effectively to 
ensure that these dollars are executed in a proper way.
    And I also understand that readiness challenges have been 
compounded by a strained civilian workforce, specifically 
resulting from hiring freezes, furloughs, and a government 
shutdown. Although the Navy may be able to withstand the 
current hiring freeze in the short term, I am concerned about 
how long-term consequences may affect your ability to build 
back readiness.
    So I do look forward to our discussion today and hearing 
specifically about not only how the Navy intends to recover 
readiness, but also what metrics and strategies are in place to 
ensure the long-term sustainability of these efforts.
    And I want to thank you again, the three admirals here as 
witnesses, for your time and your service to our country.
    And Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo. We now will 
begin with opening statements.
    Admiral Mulloy.

STATEMENT OF VADM JOSEPH P. MULLOY, USN, DEPUTY CHIEF OF NAVAL 
    OPERATIONS FOR INTEGRATION OF CAPABILITIES AND RESOURCES

    Admiral Mulloy. Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the subcommittee, we have 
submitted a joint written statement, but each one of us would 
prefer to also make a short opening statement.
    Mr. Wilson. Admiral, microphone.
    Admiral Mulloy. Oh, sorry.
    Mr. Wilson. We can't wait to hear you.
    Admiral Mulloy. Okay. Chairman Wilson, Ranking Member 
Bordallo, and distinguished members of the subcommittee, we 
have submitted one joint written statement, but each of us have 
a short opening oral statement; we would then like to get on to 
questions.
    And, sir, we would also like to thank you for your gracious 
meetings yesterday and also commend your son, or all three are 
serving the country, but in particular as a submariner, diving 
medical officers, undersea medical officers, which your son's 
first qualifications were, are very warm to my heart for my 
entire career.
    I am honored to be here today to testify on the current 
state of Navy readiness. As I am sure the subcommittee knows, 
readiness recovery is currently the primary objective of both 
the Navy and the Secretary of Defense and we appreciate all the 
attention Congress is bringing to this issue and the action you 
have taken so far this year.
    To briefly explain readiness for the Navy, you have to look 
at how we employ our ships. Of the Navy's current battle force, 
typically about one-third are deployed. This equates to about a 
hundred ships at any one time. The remaining two-thirds are 
either, one, in a dedicated maintenance period or, two, in a 
contingent response status, which is often called surge 
capacity.
    Most of the surge capacity would be ready to deploy on 
short notice to meet operational plans, but their condition 
determines their readiness to respond. If you think of our 
forward deployed forces as our first team on the field, then 
our surge capacity can be thought of as our bench. And our 
readiness impacts the depth of the bench that we are ready to 
put on the field.
    The current state of our deployed forces is strong. Our 
first team has been operationally ready to respond to any 
challenge. They all have full-spectrum training and the 
resources they need to fight and win at any fight that might 
arise, from conducting airstrikes against ISIS [Islamic State 
of Iraq and Syria] and terrorism, to keeping economic shipping 
lanes open across the globe, providing humanitarian aid after 
natural recoveries such as earthquakes and tsunamis. Your Navy 
remains the finest in the world.
    The readiness debt, however, has accrued from years of 
three items: one is high operational tempo for naval forces, 
previous funding reductions since 2013, and persistent budget 
uncertainty, which primarily impacts that bench depth. This 
includes our ability to fix our ships that come back from 
deployment, get aircraft ready to fly for the next deployment, 
and train our people to stay proficient in highly technical 
warfighting skills such as flying strike fighter aircraft or 
operating nuclear-powered submarines.
    It also includes maintaining our shore infrastructure, like 
piers, runways, and barracks, to ensure ships are not damaged 
while pier-side and aircraft are not damaged from foreign 
object ingestion on deteriorated runways. Loose debris can 
wreak havoc on an F-18 or other aircraft engines if they are 
sucked up. Thus, our primary focus for additional funding in 
2017 is to improve our bench depth, which is the core of our 
Navy readiness, and our ready to surge. This includes ship 
readiness, aviation readiness, information and cyber warfare 
readiness, our people readiness, and key enablers to improving 
operational readiness.
    Your action to pass the conference report for this year's 
Defense Appropriation Act has already helped us manage 
readiness under the current continuing resolution. Coupled with 
the 2017 National Defense Authorization Act and the President's 
request for additional appropriations, which I believe has just 
been released, the House passage of this conference report 
provided us with more confidence that Congress may pass an 
appropriation act by the end of April and prevent a yearlong 
continuing resolution.
    Because of this, the Navy has delayed some CR [continuing 
resolution] mitigations in favor of more reversible 
mitigations, such as deferring ship operational spares and 
supply requisitions and reducing support for training ranges 
and schoolhouses. While these actions are less visible, they 
prudently help ensure the current CR mitigating actions does 
not create a larger, future readiness shortfall.
    However, if held to a full-year continuing resolution in 
the end, then the impact will be much more severe because we 
are not able to gradually draw down before the end of the 
fiscal year.
    To summarize, the current state in readiness is strong, our 
deployed forces are ready and responsive. However, if action is 
not taken now to improve warfighting readiness, then I remain 
concerned about the state of the future Navy.
    I can see the subcommittee recognizes this inflection 
point, and I remain optimistic that together we will find a 
resolution in 2017 and for the future years. Every investment 
in readiness will have an impact on making your Navy stronger. 
We stand ready to work with you on the path to recovery and 
sustaining readiness over the long term.
    I thank you for holding this hearing, and I look forward to 
answering your questions.
    [The joint prepared statement of Admiral Mulloy, Admiral 
Cullom, and Admiral McCollum can be found in the Appendix on 
page 37.]
    Mr. Wilson. Thank you very much.
    And Admiral Cullom.

STATEMENT OF VADM PHILIP H. CULLOM, USN, DEPUTY CHIEF OF NAVAL 
          OPERATIONS FOR FLEET READINESS AND LOGISTICS

    Admiral Cullom. Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the committee, thank you for the 
opportunity to testify on the state of Navy shore readiness. It 
is my honor and privilege to represent the thousands of Navy 
sailors and civilians who sustain operations at our 71 
installations around the globe.
    The Navy shore readiness is a critical component in overall 
mission readiness. Today, many of the Navy's platforms plan, 
train, and launch from the shore, and some even perform their 
entire mission from the shore. Despite this essential role, 
shore readiness has been and continues to be a bill-payer to 
sustain the operational fleet. This has been a conscious 
decision that, in the short term, made sense to meet immediate 
warfighting needs in the face of constrained budgets. However, 
consistent underfunding of shore readiness is unsustainable as 
a long-term strategy.
    As Admiral Moran testified in front of the full committee 
last month, we have repeatedly taken money from cash accounts 
that are the lifeblood of building long-term readiness in our 
Navy. To date, this strategy has culminated in a significant 
facility sustainment, restoration, and modernization backlog. 
And as we continue to defer these needed investments, our shore 
facilities degrade at an accelerated rate.
    The good news is that we know how and where the degradation 
manifests itself and we are able to focus with precision on 
facilities to ensure continuity of our primary operational 
missions. Unfortunately, our limited resourcing only allows us 
to address our most critical shipyard, nuclear, pier, and 
runway deficiencies and a limited portion of inadequate 
barracks for our junior sailors. Long-term underinvestment in 
facilities has had real consequences on our ability to man, 
train, and equip our forces.
    In this fiscally constrained environment, we have done our 
best to minimize adverse effects and target resourcing for 
maximum readiness impact. We are grateful to the Congress for 
your support of our military construction program, for the 
additional authority provided in the fiscal year 2017 National 
Defense Authorization Act and appropriations provided in the 
fiscal year 2017 Military Construction and Veterans Affairs 
Appropriations Act to address where some of these shortfalls 
manifest themselves.
    Thank you. For without this additional funding, the Navy's 
military construction program would have been resourced at its 
lowest level since 1999.
    Shore readiness is a key enabler to our Navy's warfighting 
readiness. The time is right to strengthen our foundation to 
fully support the toughness, reach, and responsiveness today's 
Navy needs.
    On behalf of the sailors we represent, thank you for your 
continued support and for the opportunity to testify today. I 
look forward to your questions.
    Mr. Wilson. Thank you very much, Admiral.
    Admiral McCollum.

STATEMENT OF VADM LUKE M. McCOLLUM, USN, CHIEF OF NAVY RESERVE, 
                 COMMANDER, NAVY RESERVE FORCE

    Admiral McCollum. Good morning, Mr. Chairman and Ranking 
Member Bordallo and distinguished members of the subcommittee, 
it is my distinct honor to testify this morning on the 
readiness of the Navy Reserve.
    In short, an effective Reserve Component must have the 
appropriate authority and funding available to train, to 
mobilize, and deploy and, ultimately, be available for major 
combat operations. Because the Navy Reserve is tightly 
integrated with the Active Component, the readiness shortfalls 
the Active Component experiences are closely mirrored in the 
Reserve Component to include operations, training, support, 
equipment, and facilities.
    The past 15 years of the Navy Reserve has been very busy. 
On any given day, on average, we have approximately 25 percent 
of the force performing operational support to the fleet and 
combatant commanders, and another 2,500 Reserve sailors, as of 
this morning, are mobilized to long-term Active Duty service 
across the entire spectrum of Navy mission sets.
    The sailors are getting the job done, but it is taking 
longer and getting more difficult to generate readiness and 
certification for the use of these forces.
    The funding that supports the Reserve unit warfighting 
readiness has been unpredictable and has been diminishing. In 
just the last 3 years alone, the operational support funding to 
the Navy Reserve has decreased 34 percent. With your help, we 
can address these challenges.
    Our ability to surge and respond on short notice, where and 
when needed, either as an individual sailor or an entire unit, 
is a key element of the Navy Reserve support to the total 
force. For example, during this past January and in direct 
support of the Navy's forward-deployed ships and units, the 
Navy Reserve Fleet Logistic Support Wing flew nearly 2,500 
hours and moved over 1.7 million pounds of cargo flying the C-
130, the C-40, and the C-20.
    On the water, the Navy Reserve Coastal Riverine Squadrons, 
which form the backbone of the Navy's maritime afloat security, 
conducted over 622 escort missions at strategic ports. While 
these missions have been highly effective, they have come at 
the expense of other fleet-essential missions. Investments in 
aging Reserve Component tactical aircraft equipment is critical 
in ensuring interoperability with the Active Component and, 
similar to the Active Component, aviation depot-level 
maintenance has, as well, been backlogged.
    Our military construction and facility sustainment and 
modernization funding has not been adequate to keep up with our 
aging infrastructure at our Navy Reserve centers. Modern and 
efficient facilities are necessary to keep our sailors safe, 
trained, and ready to mobilize and deploy forward. While the 
readiness challenges ahead of us are significant, I am proud of 
our sailors' dedication, professionalism, and the sacrifice as 
they toggle between their civilian jobs and their military 
careers.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    Mr. Wilson. Thank you. Thank you, Admiral.
    As we are here today, we will begin. And so my above-repute 
commander, Margaret Dean, is going to keep the time on each one 
of us so that each one has 5 minutes to proceed. And she is a 
stickler for being correct, so this is good.
    As I am here this morning, too, looking at a portrait of 
the late Chairman Floyd Spence, I just really cherish, as his 
former campaign manager, a reason he was elected. And you can 
go ahead and begin. And a reason he was elected is because he 
was the commander of the Navy Reserve unit of Columbia, South 
Carolina. And wherever we went, some of the most capable, 
competent, and patriotic people that we would run into who just 
meant so much. The credibility of my predecessor was indeed 
enhanced and reinforced because of his association with the 
Navy Reserve. So I know the side consequence of your service 
and what a difference you have made.
    And for each of you, last month in testimony before the 
full committee of the Armed Services Committee, the Vice Chief 
of Naval Operations, Admiral Bill Moran, stated, quote, 
``Within a month we are going to have to shut down air wings, 
we are going to have to defer maintenance on several 
availabilities for our surface ships and submarine maintenance 
facilities,'' end of quote.
    For each of you, is the Navy shutting down air wings? Are 
you deferring maintenance? If not, what has been adjusted?
    Admiral Mulloy. Congressman, thank you very much for the 
question. To put it in context, at that time there was not an 
appropriation act passed by the House and the President's 
amended budget, which now is called the Readiness Appropriation 
Act, had not been totally gelled.
    So at this point in time, we have not taken those overt 
actions to shut down air wings. We have looked at deferring 
maintenance, but no availabilities have been canceled. You 
alluded to approximately 14 ships; those that can slide later 
in the year have been adjusted with the dates, working with the 
companies. That is still a Sword of Damocles overhanging our 
head right now.
    But based upon the process and the motion we saw on the 
Hill, the services working with the Secretary of Defense, the 
Secretary of the Navy, have elected to say is we believe that 
there is action on the Hill to actually avert that massive 
item. Because what happens if air wings actually shut down, 
instead of taking a month to get back flying, it would take 
months, so the impacts will ripple to the end of 2017, but also 
into a significant part of 2018.
    So as we watch what happens on the Hill between now and the 
end of April, I would say is those are on hold. We are 
deferring some spares for ships that haven't deployed yet. 
Every deployed ship has got everything they need. In fact, 
Admiral Whitesell, the battle group commander of the George 
Bush in the Middle East right now, was just interviewed and 
reported that he has never been more ready, he has every part 
he needs as he is about to steam into the Middle East.
    So I think we have put these on hold, but if you come to 
the end of April, the mitigations will be what you saw, 
probably even larger.
    Mr. Wilson. Well, again, thank you for the leadership. And 
indeed, it is incumbent on us to back you up, and I am 
confident we will be bipartisan. Any other comment?
    Admiral Cullom. Sir, I would only add that we know that the 
costs, once we do start taking those actions, will go up. They 
get worse with time. And so trying to be able to wait until we 
absolutely positively have to take those actions, I think, is 
in the best interest of all. But at some point, then those 
actions will have to be taken.
    Admiral McCollum. Mr. Chairman, only other thing I would 
add is, as I mentioned earlier, because the Reserve Component 
is integrated and tightly aligned, the decisions that the 
Active Duty Component make, we behave accordingly in how we 
adjust our funding and our operations. So as Admiral Mulloy 
said, we are encouraged by the momentum that we see.
    Mr. Wilson. Thank you. And I have been impressed about the 
Navy Reserve units. They are, with the MILCON [military 
construction] there in the district I represent, really 
positive developments, and then next door in Charleston at the 
Nuclear Power School, this is being addressed.
    And for each of you, in the summer of 2016 issue of Surface 
Warfare magazine, Jeff Bauer from the U.S. Fleet Forces Command 
is quoted saying that the minimum standard for maintenance 
completion under the planned maintenance system, PMS, is 80 
percent. Yet in the same article--and it should be 100 
percent--it states that the preventive maintenance requirement 
derive when a, quote, ``Real risk of failure has been 
determined and that the failure has consequences that are 
unacceptable,'' end of quote.
    When did the minimum standard become reduced to 80 percent? 
Could this result in unacceptable safety and operational 
capabilities of the Navy system?
    Admiral Mulloy. Sir, I am going to have to take that 
question for the record because I have not seen that article. I 
don't know of a reduction of PMS.
    Having served at all levels in the Navy, from being a 
division officer 37 years ago on a submarine, until my current 
status, avoiding PMS and deferring PMS is always hazardous, it 
will add to the future failure of items on board the ship. 
There may be short times where it is deferred due to 
operational commitments, or it may be you are waiting for some 
spare, but I have not seen anything in writing that says the 
Navy will reduce 80 percent, but I will owe you an answer back 
on that, sir.
    [The information referred to can be found in the Appendix 
on page 49.]
    Mr. Wilson. And, Admiral, we would be happy get the article 
to you and look forward to your response.
    And in conformity with the 5-minute rule, I now defer to 
Congresswoman Bordallo of the territory of Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Admiral Mulloy, I have a question for you. You place much 
emphasis on how the high operational tempo has stressed the 
current readiness levels for the Navy. What are some steps you 
are taking to ensure the Navy is meeting combatant commander 
requirements amidst a strained fiscal environment?
    In other words, how are you ensuring the Navy is where it 
needs to be with the fleet and the sailors it has?
    Admiral Mulloy. Yes, ma'am. We are doing that through a 
couple ways. The most important one is the Optimal Fleet 
Response Plan [OFRP] where we have actually now laid in 
opportunities for each ship that focus on maintenance first, 
prepares the battle group as an organized group, they get 
underway for sails, then group sails such that they are fully 
combat-ready when they arrive. And that is now being spread 
through every class of ship.
    Most of them are on that 32-month cycle, some are on a 
different based upon the class. So that is first, where we put 
the ships in an organized plan.
    The second is constantly refining, what is the training 
required for those areas where they go? I will tell you is, we 
cannot meet every demand of the combatant commanders based on 
the size of the Navy. We have a standing average, about 40 
percent of their needs are met. The most critical ones are then 
sourced through the Joint Staff, working with the Secretary of 
Defense to meet Presidential needs around the country. That's 
the focus, what you have probably heard called the ribbon 
charts, that we lay out battle groups and amphibious readiness 
group deployments. And then we have below that are ballistic 
missile defense requirements and submarine requirements.
    There are tremendous demands for security around the world 
that have only gone up over time. As I look back on the last 5 
years, Russia resurgent, China has quadrupled their force in 
the last 17 years, the Russians have doubled their budget in 
the last 15, 16 years, and ISIS has appeared, and Iran has 
continued to be the actor there in the Middle East, and 
obviously, North Korea has set off more nuclear weapons than 
his two predecessors and more rockets.
    So the stress on our force is there. We are optimizing what 
we can and we are deploying about one-third of our ships. We 
used to deploy about a fourth of them. We need the readiness 
dollars to come back to allow us to maintain it.
    That is where I view us purchasing Hornets as, you know, we 
support that Congress greatly put in the bill a significant 
number of Hornets. That I don't view is growing force 
structure, that is actually a readiness issue. We are flying 
our Hornets 35 hours a month vice 25, and we have never stopped 
since 2011. There has been no, quote, ``peace dividend'' for 
the United States Navy. Our air force is flying in the Middle 
East off both amphibious ready groups and primarily on 
carriers, we are wearing the planes out. So that is why I view 
buying more, but it takes a concerted effort across the board 
to make the Navy ready.
    Ms. Bordallo. Thank you, Admiral. And it is amazing, with 
all the challenges that we are facing, that we can still 
continue to keep things in order.
    Admiral Mulloy. Yes, ma'am. It is based upon the dedication 
of the military and the civilians and the support from Congress 
that we are able to keep the wheels on this bus called the 
Navy.
    Ms. Bordallo. Thank you.
    Admiral Cullom, I have a question for you. Can you address 
how the Navy plans to support a proposed larger fleet? As we 
have heard earlier, the Navy is unable to repair and return 
fleets to service per the current OFRP.
    So please detail to us, as quickly as you can, how the Navy 
is planning to invest in shore infrastructure and depot 
capabilities to ensure parts and facilities are ready for ship 
maintenance. Without this investment in infrastructure and 
depot capabilities, I truly am concerned that we could have a 
larger Navy that is less ready than our current fleet.
    Admiral Cullom. Yes, ma'am. To address how and where we are 
putting our funding and what we are trying to focus on and 
prioritize, we have prioritized life and safety-related issues, 
the repairs to critical components, because we know that if we 
don't repair those, then the cost of being able to fix those 
later is just going to grow increasingly. So it is very 
important that we address those.
    Additionally, the mission-critical facilities, piers, 
runways, and things like that, are evermore important. And 
frankly, a lot of our operations are changing in nature in that 
we see the importance that our information systems have.
    As I mentioned in my opening remarks, the fact that we are 
doing many more of our operations from the shore means that 
those are important. So we have prioritized our funding to 
address by looking at the facility condition index of the 
specific components, whether it is the windows, the doors, the 
HVAC [heating, ventilation, and air conditioning] systems and 
things like that, or the utility systems, to ensure that we 
fund those properly and have put the focus there.
    Now, as the fleet grows, we will certainly reassess where 
we are going to continue to put things, but it is right now 
about making sure that we are focusing on the shore that we 
have, the shore infrastructure, from the 34,000 buildings and 
29,000 structures across those 71 installations and 700,000 
acres of land--a little bit less than Rhode Island, but it is a 
lot of land.
    Ms. Bordallo. Thank you, Admiral. My time is up and I would 
like a second round.
    Mr. Wilson. And thank you so much, Congresswoman Bordallo.
    And we now proceed to Congressman Austin Scott, of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Admiral Mulloy, you mention the Optimized Fleet Response 
Plan. The Government Accountability Office [GAO] analysis is 
fairly critical of that plan for years 2011 to 2014.
    Can you explain the differences in the Optimized Fleet 
Response Plan and the old maintenance schedule plan and how it 
will improve maintenance long term and how we intend to address 
the issue of what the GAO would simply refer to as the 
shortcomings?
    Admiral Mulloy. Sir, I have seen a classified GAO report on 
this and even there they admitted they had some data from 2015 
that was not actually properly analyzed properly.
    Mr. Scott. Okay.
    Admiral Mulloy. And we can respond to that in writing 
because it was classified. I would tell you that the Optimized 
Fleet Response Plan didn't exist in that period of time. We 
were in FRP [Fleet Response Plan]. We created it because we 
used to be focused on the deployment cycle and then maintenance 
would be at the end.
    By shifting the whole cycle around to being the maintenance 
is the primary component at the beginning, it ensures that the 
ships actually have the time, and it has actually resulted in, 
in some cases, where we now wait before we deploy a whole 
group, that the ships all have to be repaired. The most recent 
example is the Bush, where the battle group deployed a short 
period later than expected, but it was also every ship was 
done.
    So I think there actually is a point where we find the OFRP 
brings a discipline to the fleet and to us to respond even to 
the Joint Staff and national command authorities is, you will 
deploy when you are warfighting ready, and warfighting ready 
depends upon your maintenance.
    So three battle groups are in it. We have a total of 10, so 
there are 7 to go over the next 5 years. We actually see the 
metrics that it is forcing us in terms of manning to bring the 
ships to the right level of manning. It is bringing us to the 
right in terms of spares when they deploy and that we can 
actually get out there.
    Last summer we actually had four aircraft carriers fully 
operational and deployed at one point in time because they 
happened to be coming and going from deployments.
    So we know we can get the forces there, but we do is have 
to clear this backlog of all the ship maintenance we have. And 
we view that we think that this plan has been the third cycle 
of fleet response programs over the years, that we now think we 
have tuned this to the proper level.
    Mr. Scott. I have the privilege of representing Robins Air 
Force Base, which is obviously a large depot. I see the 
criticism of some of our facilities, and it is not lost on me 
that continuing resolutions, furloughs, hiring freezes, and 
other things, in the end, created a lot of the problems.
    So I hope that you will continue to press for a budget or 
an appropriations act, I should say, instead of the continuing 
resolutions that we have had in the past.
    And I look forward to having a more aggressive leadership 
in the DOD [Department of Defense]. I don't think we have to 
worry about the current Secretary of Defense letting Congress--
--
    Admiral Mulloy. No, sir, Secretary Mattis has made it very 
clear that restoring readiness is a goal in 2017 and 2018, 
maintain before we buy any more force structure.
    Mr. Scott. Yes.
    Admiral Mulloy. And absolutely, the support of this 
committee, having the hearing today on readiness, bringing a 
focus on exactly what you talked about, having regular 
appropriations, which you have already taken action on, and 
then addressing what Secretary Mattis will send over today with 
his advance appropriations, again, for 2017 to give us the 
amended budget to restore what we need.
    And also, appreciate the support to be able to say that the 
hiring of civilians and recognizing in 2013 the shutdowns and 
furloughs were remarkably painful across the board.
    Mr. Scott. Given the high demand for carrier presence, what 
efforts is the Navy taking to assist the shipyards in 
completing the maintenance availabilities of these teams on 
time?
    Admiral Mulloy. First off was, on this hiring freeze, the 
Navy has issued 22,000 waivers to bring people back on and we 
have hired now 2,800 people within the Navy since January, so 
we are not completely on track with where we should be.
    Across the board, efforts start from the CNO [Chief of 
Naval Operations] and Admiral Moore visiting naval shipyards in 
Norfolk. I went out to Pearl Harbor Naval Shipyard and looked 
at the level of what do we have to have in terms of trainers, 
materials, and equipment and to do there.
    Part of that also comes back to--Admiral Cullom can talk 
more about the shore side--you also have to put some money and 
investment in the actual shore infrastructure of the cranes, 
the dry docks, and other equipment. We have made modest 
investments there because we are also tied to the 6 percent 
depot rule. So at least our depots have got some minimal 
amount, air and ship depots have. This continued focus will be 
more and training the people we have brought on.
    We have hired over half of the shipyard employees, there 
are 32,000 going to 33,000 with the support of Congress. Half 
of those people have less than 5 years of work in a shipyard. 
We need to basically hold the line on doing the training and 
getting those people on board because we have aged out that 
workforce.
    Mr. Scott. Gentlemen, thank you for your service.
    Mr. Wilson. Thank you, Congressman Scott.
    And we now proceed to Congressman Anthony Brown, of 
Maryland.
    Mr. Brown. Thank you very much, Mr. Chairman.
    Maryland is the home to several military installations, and 
we are proud to host Naval Air Station Patuxent River. In the 
Fourth Congressional District we are home to Joint Base Andrews 
where we have a strong Navy presence. So I am certainly 
delighted that you are here today to talk to us about Navy 
readiness.
    My question goes to life-cycle management and reliability 
analysis. So it is my understanding that the Navy and the 
Marine Corps are operating at about 63 percent of the O&M 
[operations & maintenance] budget that you would actually need 
to fully fund the operations. And obviously, that impacts 
readiness.
    So my questions are, you know, to what extent do you 
embrace reliability analysis? Are you incorporating that? Are 
there challenges in incorporating that? What are you learning 
from reliability analysis? Does the budget constraints impact 
your ability to implement reliability analysis? And if you 
could just shed some light on that for me and the committee, 
that would be helpful.
    Admiral Cullom. Yes, sir. We are debating the piece as to 
who would address which part of it because encompassed in that, 
in terms of the life-cycle management, there is a piece of that 
that is clearly on the shore side of the house and a lot of 
that is also in the operational sustainment accounts that are 
the operational fleet part of it.
    Collectively, together, they are absolutely essential for 
being able to see us through the life cycle of a given ship, 
plane, submarine, or even tactical vehicle and some of those 
things are even repairs of the runways, repairs of dry docks to 
make sure that we can sustain those ships. So there is a very 
clear shore component of it.
    That is why we have focused on the shore side very heavily 
on the things that are operationally related to the sustainment 
of the Navy that we have today, even as we are building a Navy 
of the future.
    Operationally, there is another piece of this, too, on the 
contractual side of sustainability. And maybe Admiral Mulloy 
can mention about that.
    Admiral Mulloy. Sir, we absolutely look in reliability 
maintenance. My whole career has been spent looking at 
evaluation of what is a condition of a ship, a product. You are 
in the shipyard, I have had the new construction engineer of a 
boat, I was the overhaul as junior officer, I have operated. 
Also, working with people down in NAVAIR [Naval Air Systems 
Command]. Everything is based upon what we hope is life-cycle 
maintenance. You don't always understand everything until you 
actually get it to sea or fly it, and then you get feedback.
    For a period of time, the Navy in downsizing in the late 
1990s took away what is called, you know, the SURFMEPP [Surface 
Maintenance Engineering Planning Program], surface examination 
group for surface ships. And we kind of suspended that view. We 
did not stop PERA-CV [Planning and Engineering for Repairs and 
Alterations--Carriers] for the carriers or SUBMEPP [Submarine 
Maintenance, Engineering, Planning and Procurement] for the 
submarines. But the surface ships were like, okay, we can 
manage this.
    We realized that was a mistake, we needed to bring back 
that life-cycle management on the surface ships to be able to 
have that long-term view of the health of the boats.
    We had life-cycle plans, but they weren't as religiously 
brought together. So we restarted SURFMEPP, brought back the 
surface maintenance engineering groups. And that has been a 
real focus to bring the surface ship readiness back up to a 
level.
    We are always looking for future diagnostic tools or other 
plans. But everything we do is focused on long-term 
maintenance. But as you point out, the shortage of O&M can 
drive us to questions of, can we afford it now? You defer it 
later and when you defer something you pay more for that later. 
If you can't fix your roof this year, you fix it next year. 
That is, you know, symbolically on a ship or on a building, in 
many cases you pay the price later.
    Mr. Brown. Thank you.
    Admiral Cullom. Sir, I would add one more thing. That in 
addition to just the normal repairs that we have to do, there 
is also the piece to be able to keep the ships for 40 years, 
you have to do midlife upgrades to them. And for aircraft, you 
have to SLEP [Service Life Extension Program] those to be able 
to ensure that you will get 10,000 flight hours out of an F-18.
    So those are an essential part of that life-cycle cost as 
well. And we do look at those very closely as an integrated 
package of how we get those things to get the full utility for 
the American taxpayer.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Congressman Brown.
    We now proceed to Congresswoman Vicky Hartzler, of 
Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And appreciate your comments, Admiral, about the F-18, the 
need to recapitalize that. That is just a very important 
aircraft and it has certainly been doing its job in the fight 
against ISIS and wearing out as it is doing it, so appreciate 
that.
    Vice Admiral McCollum, I wanted to ask you about the 
Reserves a little bit because you have had a very heavy 
operational use tempo over the past 16 years. And so, do you 
see this as a new normal for the Navy Reserve? Or do you see 
the Navy Reserve returning to their traditional strategic role 
in the future?
    Admiral McCollum. Congresswoman, thank you for that 
question. When we reflect on the Navy Reserve and understand 
how it was designed, it was designed for a strategic 
capability, strategic depth. But since 9/11 and in the use, it 
has become operational by necessity.
    And as we look at the capability that the Navy Reserve 
provides to the Active Component to surge specific skill sets, 
to surge specific unit capability, under the current demand 
signal we know the world is a busy place. And as we look at the 
expansion of our operations and maintaining our operations of 
support, we do see a steady demand signal in place.
    Now, as we chart the path forward and work our strategy 
with the broader Navy capability, you know, we will land in the 
right place, but the current construct and demand signals 
certainly suggest a sustained demand signal for operational 
support that the Navy Reserve provides to the Active Component.
    Mrs. Hartzler. How would you assess the morale of the 
reservists and their resilience with this high tempo?
    Admiral McCollum. Congresswoman, you can probably 
understand, when we leave the Pentagon and go out and visit our 
troops operational, our troops in training, that is certainly a 
highlight, and we are very inspired. And it is primarily 
because of the resilience, the enthusiasm, and dedication that 
we see with the Reserve sailors.
    And these sailors are the ones that are managing two pieces 
of their life, one is with their civilian employer, the other 
one was their commitment to serve in the Navy. It is very 
inspiring to see that.
    The ability to generate wins to make that lifestyle easier 
and more efficient continues to support the high morale. Their 
hearts are so dedicated and so willing to serve. It is, that is 
as I mentioned, the inspiring piece of this.
    When we have issues with predictability, that is where we 
meet our challenges because what is important to a Reserve 
sailor is predictability and access to their requirement in the 
military, but being able to be predictable so they can schedule 
their obligations.
    And the way that our funding works in CRs and things like 
that, it makes it less predictable. But net/net I would say it 
is very inspirational, morale is very high.
    Mrs. Hartzler. That is great, that is great. Well, I 
appreciate what they do, it is a lot to juggle.
    Admiral Cullom, I want ask you about shipyards. What 
actions is the Navy taking to address challenges in public and 
private shipyards that can affect the Navy's ability to 
complete ship maintenance on schedule?
    Admiral Cullom. Ma'am, we have done a great deal to focus 
on, and with the Congress' help and the legislation that 
requires us to look at how much we invest in those shipyards, 
and shipyards and FRCs [Fleet Readiness Centers] collectively 
together, you can't really do one without also working the 
other. Because when we deploy a carrier, it deploys as a 
carrier strike group, so it is aviation maintenance as much as 
it also is the shipyard maintenance.
    We have worked very hard to try to improve the throughput 
of those shipyards to ensure that they have what they need in 
terms of utility upgrades. We have focused very keenly on 
looking at the specific facility condition of various 
components. And that is really the piers, the wharves, the dry 
docks in particular, because those are all--cranes, those are 
all things that can become limiting components to being able to 
get the work done within the shipyards.
    And to the best of our ability, we have devoted the 
resources to those and we are going to continue to look at the 
ways we can look at the shipyards of the future and putting 
them in a position to be able to support the work that we 
anticipate.
    There is a lot of creative thought out there by folks that 
do that for a living on the engineering duty side of the house, 
and we are excited about.
    Mrs. Hartzler. Great. Thank you.
    Mr. Wilson. Thank you, Congresswoman Hartzler.
    We now proceed to Congressman Joe Courtney, of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to all 
the witnesses.
    As we are sitting here, actually the news is starting to 
unfold about what Admiral Mulloy referenced, that, again the 
supplemental request is now unfolding. And it appears that 
about 80 percent of the supplemental is going to be in the base 
budget, which automatically takes it above the BCA [Budget 
Control Act] caps which, you know, that adds to the degree of 
difficulty in terms of what the Senate is going to have to 
contend with and, you know, the clock is ticking, as we all 
know.
    So, I guess, you know, I think for clarity's sake, if one 
of two scenarios happens, one is that they do pass the funding 
level, but not lift the BCA caps and, thus, that funding gets 
sequestered or, (b), they just, you know, kind of punt and go 
to a CR.
    I mean, what does that mean in terms of the air wings and 
the availabilities that, again, kind of hinged on the fact that 
we would have a positive outcome at the end of April?
    Admiral Mulloy. Sir, as to how the OMB [Office of 
Management and Budget] is financing it, that is a separate 
discussion. As to the risk we now take, yes, my opening comment 
was prefaced upon motion ahead----
    Mr. Courtney. Right.
    Admiral Mulloy [continuing]. And then the specifics are 
there, as you brought out. We certainly have seen, you know, 
potentially up to five different scenarios of a yearlong CR. It 
is larger in OCO [Overseas Contingency Operations] so it 
doesn't count against the caps, it is a mix in between. We only 
get the readiness dollars, not the procurement side of it. 
There are a bunch of scenarios.
    I will tell you, if we don't get the readiness dollars, the 
stipulations the Vice Chief of Naval Operations told you of 
five air wings or more shutting, combination shutdown and 
tactical hard deck on 14 ship availabilities, will be the 
minimum. And we have not developed those specifics, but we will 
relay those to Congress in a classified document later that 
says, hey, these are those impacts. It will be that or more and 
will very likely be more depending upon the date that that 
kicks in.
    But that is not action we are taking right now, we really 
want to see how this plays out over here. But it would have a 
dramatic impact. And much of it would actually be in the 2018 
time. When you get to fiscal year 2018, that would be the ships 
and squadrons not working up or maintaining now would be they 
would not deploy in 2018.
    You would start seeing the same carrier gaps, you would 
start seeing other impacts around the world. But largely, it 
would be in 2018, not as much in 2017, because you keep the 
deployed forces as ready, as was discussed, sir. But the 
specifics, we would have to see the timing and money.
    Mr. Courtney. And, again, thank you for that answer. I 
really think, you know, sometimes, you know, the narrative or 
the talk down here gets sort of lost in sort of, you know, very 
abstract language about CRs and sequester.
    I mean, what I think really clarifies is really talking 
about, you know, sort of real-life impacts, so hopefully we 
will get some more of those specifics as, again, the choices 
start to become clearer for both chambers.
    So, you know, just want to go back to a question Mrs. 
Hartzler raised about the public and private shipyards. Again, 
when Admiral Moran was here, again, he was clear that, yes, 
there has been backups caused by, you know, the inconsistent 
funding that Congress has unfortunately produced over the last 
few years, but that there has also been other sort of problems 
in the shipyards in terms of getting the work done, partly 
because the deployments have worsened the condition of ships 
and subs that are coming in for repairs.
    But clearly, I mean, even with, you know, healthy funding, 
there is still going to be a backlog at the public yards. I 
mean, you know, it is what it is. And I guess the question is, 
are you looking at, again, using private yards as an option to 
sort of, again, get this backlog addressed?
    Admiral Mulloy. Yes, sir. Since 2012, six submarine 
availabilities have been put in the private yards. I think 
three or four at Electric Boat and a couple at HII [Huntington 
Ingalls Industries]. We are now--currently the USS Columbus is 
out for bid for this year. And there are two more that will 
come over in the 2018 budget that we are now examining as we 
explore 2018 that would now once again help the workload.
    Because the naval shipyard workload, number one, is SSBNs 
[ballistic missile submarines], getting those refueled and back 
out is a national priority. Number two is aircraft carriers, so 
the SSNs [attack submarines] end up being the ones who have 
been behind since we have had 53-month overhaul on the 
Connecticut, 48 months on another SSN that was too long in 
there. So we are and we will reexamine in the future.
    But right now, like I said, there is one, Columbus, in this 
year and at least two more the next budget. And it will make a 
total of nine since 2012, potentially, would have been outside 
because we need to get the boats done and we recognize the 
quality of work at HII and Electric Boat as well.
    Mr. Courtney. And again, I think that will be a good bridge 
in terms of, you know, the other challenge the Navy has, which 
is the Force Structure Assessment, which again, I think 
smoothing out the workforce will get us in a better position to 
take on that added work.
    So with that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much, Congressman Courtney.
    We now proceed to Congressman Mike Gallagher, of Wisconsin.
    Mr. Gallagher. Thank you, Mr. Chairman. Gentlemen, thank 
you for your time today.
    To what extent are you incorporating cyber readiness into 
your assessments? And take me through the methodology through 
which you do so.
    Admiral Mulloy. Sir, cyber plays a direct part in two 
areas, one is the defensive network operations and then 
offensive cyber. That is directly involved, and a lot more 
specifics would have to be in a classified discussion, but 
unclassified discussion would be is that it is no longer a 
secondary thought when we build this budget.
    Admiral Jan Tighe, the Director of Naval Intelligence and 
also the DCNO [Deputy Chief of Naval Operations] for 
Communications, Capabilities and Networks, and she and I talk 
frequently, is that she is now a warfighting role along with 
Admiral Manazir and others with the DCNOs with the CNO, so that 
we look at it as, do I want to use what is called soft kill 
versus hard kill analysis? Do I have to have a weapon on a 
weapon? Should I take it out with a cyber?
    So that concept of soft kill or what we call left-of-launch 
is in all of our focus. It just ends up being much of that area 
remains highly classified where we are. But there is 
significant focus on it.
    Hence, we are looking at how the continuing resolutions 
affect the workforce, affect the contracts we are able to make. 
What can I do within the Naval Warfare Development Group? There 
is a whole development group just for cyber items that we use, 
that are highly classified also. So these items are affected by 
the same O&M shortfalls.
    On the other side is, CRs can affect us because we need 
money to eliminate software that is old. We still have Windows 
10. We have other distributions out there. We have what we call 
Windows 10 eradication program that is critically dependent 
upon operation and maintenance and procurement dollars that are 
in our budget. They may look buried, but that is a critical 
infrastructure for our defense that we worry about. So that is 
areas that we want in this budget. And there are cyber-related 
items woven throughout it, sir.
    Admiral Cullom. And, sir, I would also add that cyber truly 
is its own domain, as Admiral Mulloy is kind of suggesting, and 
much of those cyber capabilities actually involve the shore 
infrastructure. And increasingly, we look at that and the 
utilities that are associated with it. The entire backbone for 
cyber is not at sea, but ashore.
    So collectively, that has to support a domain of warfare 
that is essential to the integrated part of what the Navy does.
    Admiral McCollum. And, Congressman, I might add the cyber 
capability that Admiral Cullom stated, this is one of the areas 
that the Navy Reserve is able to contribute, considering the 
experience that a lot of our sailors have in their civilian 
experience. So that is an area where we are tightly integrated.
    Mr. Gallagher. That is an interesting point. I was just up 
in Rhode Island and Connecticut. And we saw some of the amazing 
things that the Reserve is doing in terms of, well, and also 
Active, in terms of distance learning. So cyber certainly opens 
up opportunities. I mean, what are we doing or what are you 
doing in the Navy to sort of capitalize on that, and how has 
that impacted Reserve training and operations, if that makes 
sense?
    Admiral McCollum. Well, certainly in the unclassified 
domain, there are certain training methodologies and 
capabilities that the Navy Reserve can undertake. We can take 
advantage of both hardware and software in our training. A 
reservist having access to their training is a key enabler.
    I did bring this morning a device which reads our ID 
[identification] card, and this can plug into a sailor's 
personal iPhone or Android or whatever their smartphone device 
is, insert their ID card and still provide two-factor 
authentication to identify a secure place where they can do 
their training.
    Obviously, if it becomes in a more classified context, that 
will draw them closer to the facility where they would work or 
where they would train, but it has really opened up the ability 
for the reservists to gain access to programs and tailored 
training to make them more ready in that support.
    Mr. Gallagher. Sure. Well, as a millennial, I would say the 
less of Windows 10 we do and the more of things like that, the 
better off we will be in terms of recruiting people. Thank you.
    I yield, Chairman. Thank you.
    Mr. Wilson. Thank you, Congressman Gallagher.
    We now proceed to Congressman Don McEachin of the 
Commonwealth of Virginia.
    Mr. McEachin. Thank you, Mr. Chairman. And, gentlemen, 
thank you all for your service.
    We tend to talk to you about, when we speak in terms of 
readiness, repairing our ships and repairing our planes and 
that sort of thing, all of which are incredibly important. But 
I would like for you all to comment a little bit about morale, 
and in particular about dwell time and whether or not you all 
consider that as part of your analysis of readiness. And if so, 
what can we do to improve dwell time among our sailors?
    Admiral Mulloy. Sir, thank you for the question. And 
clearly, morale and the ability of our sailors to be part of 
the fight are the most important item. The strength of the 
service is the sailor. And where we look at that in terms of 
what can be done is, in the request for additional 
appropriations is additional money for PCS [permanent change of 
station], moving people, because getting families to move as a 
group in the time that is appropriate for them, for their 
ships, helps the ship and helps the family have long-term 
planning.
    Based upon shortfalls this year, which are going to be 
asked for here is, we can get ourselves backed up in many 
months. I will tell you that all the time I see is many cases, 
that is some of the biggest stress on a family is the move. 
When can I move, when will I get authority? We are down to 
about 1- or 2-month lead time, vice normally like to be 6 
months. That is a single-biggest item that would be funding in 
this appropriation coming up, and then, once again, getting 
that actually out so that we are not in a CR.
    Beyond that, we look across the board in terms of the pay, 
allowances and items, but when you come to dwell, the single-
biggest area in dwell is actually getting on the OFRP for the 
Reserves and for the Active.
    Mr. McEachin. I am going to interrupt you, Admiral. Tell me 
what those initials stand for?
    Admiral Mulloy. Oh, I am sorry, Optimized Fleet Response 
Plan.
    Mr. McEachin. Thank you.
    Admiral Mulloy. As earlier we were discussing, sir, was 
getting the ships on a known maintenance cycle, then their 
operational cycle is all tied to that, that they then know what 
their future path is. I am going to be in a shipyard for 4 
months, when I come out I will then do my battle group workup, 
and when I get done with that I will deploy on this date and 7 
months later I will be back.
    That provides a tremendous amount of focus for the sailors' 
mental well-being. They know their qualifications and their 
families are comfortable, they are taken care of, and the whole 
family infrastructure then revolves around that.
    That same concept applies to the Reserves, too, as they 
know when they are mobilizing, they know when they are coming 
back. So, clearly, morale is a significant focus, it just ends 
up being is, the interstitials are the operation and 
maintenance dollars for the fleet and for the aircraft as well 
as the personnel manpower dollars are critical to that.
    I think Admiral Cullom may have more in terms of our shore 
side about that, too.
    Admiral Cullom. Yes sir. I would like to add to what 
Admiral Mulloy mentioned. What he is talking about with the 
fleet response plan, what that really gives us--and when I look 
at morale, what affects morale the most for our sailors, it is 
predictability, it is certainty and it is quality of life and 
quality of service. If we can give them those things, they will 
go to the ends of the earth for us.
    And what we are working on very hard with that fleet 
response plan is that predictability and certainty so that they 
can be able to have a pretty stable environment for their 
workup cycles and for their deployments, so that they have 
stability with their families at home.
    The quality of service piece, that kind of falls back onto 
the shore side of the house, that is housing, it is those PCS 
moves, the permanent change of station, moving from halfway 
around the world in some cases. I just had a family come in the 
other day of a gentlemen that used to work for me many years 
ago, and his five children and his wife will be moving to 
Japan. He is a great officer, but they are trying to figure out 
and time when they move to Japan.
    Those things are very important to the morale of our 
families, as much as the morale of the sailors themselves. And 
we all know, if your family is not happy then you are probably 
not happy as a service member.
    The other piece is child development centers and things 
like that, absolutely critical for those that are either single 
parents or those that need to have that because you have two 
working parents. So those are all part of that quality of 
service piece that is also essential.
    Thank you, sir.
    Admiral McCollum. And, Congressman, I would just add, in 
our Reserve centers, when a Navy Reserve sailor comes back from 
their deployment and goes into what we call dwell, for the 
Reserve sailor, the importance of having a facility, a Reserve 
center or training site that is well-maintained and secure 
provides support for that quality of service that Admiral 
Cullom was referring to.
    Mr. McEachin. Thank you, Mr. Chairman. And thank you, 
gentlemen. I yield back.
    Mr. Wilson. Thank you, Congressman McEachin.
    We now proceed to Congressman Trent Kelly, of Mississippi.
    Mr. Kelly. Thank you, Mr. Chairman. And thank the witnesses 
for being here.
    Just a brief point, real quick. I actually talked to some 
people this morning and we were talking about readiness and how 
important a family and the family structure is to that 
readiness. And so in a readiness standpoint, the hiring freeze 
on places like the commissary and the PX [post exchange] and I 
think daycare is exempted, but many of those jobs are filled by 
service members' spouses or children and those are secondary or 
third measures of income that are important.
    And a sound financial mind and a sound security mind for 
those families makes it easier for those sailors to deploy. 
Would you agree with that assessment, any of you gentlemen?
    Admiral Mulloy. Yes, sir, I would, and I know that 
Secretary Stackley, Acting Secretary of the Navy, has been 
leaning forward on trying to get what are those impacts. And, 
as I have said, we have had 22,000 waivers approved and his 
staff is geared up to within 5 days of any budget-submitting 
officer, any admiral in command out in the fleet coming back, 
they will then process those waivers and they are moving into 
what we call the Class B and C.
    So it is really a matter of finding out who needs to hire 
when and get those back up. But absolutely Mr. Stackley--and I 
will tell you is that the support structure of families drive 
directly to readiness and morale and, therefore, he is also 
looking at how many different waivers we can approve as he is 
looking within the guidelines given.
    Mr. Kelly. And that is quite frequent because when a 
soldier or a sailor--I am a soldier--but when a sailor PCSs 
from one station to the other, that family moves, which means 
they are a new hire and maybe a different job, because they are 
more customer-service related and not necessarily skilled labor 
where they transfer from one place to the next. Would that be 
correct, Admiral?
    Admiral Mulloy. Yes, sir, absolutely. And it is a 
significant part of a lot of the family moves is where can they 
go, what is the timing of that and then how can they get the 
other spouse either immediate employment and working with us? 
As you point out, a significant number work within the base 
structure, within the military depot structure and as well as 
jobs in town. And we have programs on all the bases that focus 
on that. And any hiring freeze across the board anywhere 
affects professional men and women that are the spouses.
    Mr. Kelly. And just so you gentlemen know, you admirals, it 
amazes me that we are arguing over the negative effects of the 
BCA. It is detrimental, it is extremely risky, it is possibly 
dangerous to not repeal the BCA.
    Congress has one primary duty, in my opinion, and that is 
to provide for the defense of this nation. And there is no way 
that the BCA in any way helps this nation provide for the 
defense. That being said, personally, the Navy has not yet 
recovered from the readiness impacts caused by sequestration 
and more than a decade of continuous combat operations. My 
deputy chief of staff is the wife of a marine. He was getting 
ready to deploy from Norfolk and their ship broke down so often 
that it interfered with both the training and the deployment 
dates. And I think actually it got called back one time.
    Please discuss the risks posed by the magnitude of the 
surface fleet's deferred maintenance on its ability to achieve 
the CNO's goals of operational availability.
    Admiral Mulloy. Sir, thank you for the question. I don't 
know the specific ship involved, and we can research that one, 
but I will tell you, your first point about the Budget Control 
Act and its impact, I have been in Navy finance jobs for almost 
8 years now in this time in DC and I will tell you the single 
most painful year was 2013. But since then, every year, I will 
still stand back and tell you, as a chief financial officer in 
the Navy we are down in the Navy $30 billion, which is a mix of 
procurement and operations and maintenance across the board--
$30 billion over 5 years short based upon that law.
    Only the action of Congress to give us bipartisan budget 
acts restored some of that money. Otherwise, I would be down 
almost $50 to $60 billion. Making that balance across the Navy 
to keep the Navy readiness and still support deployed 
operations is tremendous.
    As I have said, we saw some of the degradations in the 
surface ship maintenance even as far back starting with INSURV 
reports, you know, Board of Inspection and Survey. In the 2008 
and 2009 period, we saw that the amphibs first and other 
surface ships were starting to degrade, were not aging 
gracefully, let us say, because they were the oldest ships, 
many of the oldest ships we had.
    So we needed a combination of restoring the planning and 
thought behind that. And then once we get on that recovery, 
unfortunately, since 2013 we have been dealing with getting 
back to the people that we planned to hire in the shipyards and 
then having furloughs.
    So getting ourselves and our fiscal house within the 
country in order is important to maintain that. I would say is 
we are aggressively following, and I would say the condition of 
every class of ship is up on all the INSURV boards, and we have 
had tremendous support from Congress to put money, hundreds of 
millions of dollars every year through reprogrammings into ship 
operations.
    But largely, a big chunk of it is ship maintenance. Almost 
$700 million a year have gone to ship maintenance, even at a 
time of shortfalls. So we will keep that up as we go. And that 
is one reason why Secretary Mattis has said current readiness 
is the most important thing over growing the size of the force.
    Mr. Kelly. Thank you, Mr. Chairman, and I yield back.
    Mr. Wilson. Thank you, Congressman Kelly.
    We now proceed to Congresswoman Tulsi Gabbard, of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman. Good morning, 
gentlemen, thank you for your service.
    Vice Admiral Mulloy, you talked a little bit about some of 
the major infrastructure needs at our shipyards and your recent 
visit to Pearl Harbor. I just met with some of the managers 
yesterday from the shipyard who also reiterated that the ailing 
state of infrastructure at the shipyards and the impact on 
readiness.
    They spoke specifically about Dry Dock 3 there at Pearl 
Harbor and basically if action is not taken immediately and 
prioritized, then the dry dock will no longer be able to be 
used, period, in the coming few years.
    I wonder if you could talk a little bit more about how you 
are prioritizing the shipyard infrastructure needs, especially 
with the budget that we are about to see, and how long you 
think it will take in order to get our shipyards back into the 
right place?
    Admiral Mulloy. Ma'am, I will have to give you back an 
answer for the total time, a detailed response on the 
maintenance plans. When I was at Pearl Harbor, I saw the 
condition of the well of the dry dock and we talked about that 
as a priority.
    [The information referred to was not available at the time 
of printing.]
    Admiral Mulloy. Each of the yards, under the depot law, 
about 6 percent of all the maintenance money must go back in 
repairs, and we have looked at what is the best order of events 
to flow through, and we are working our way through the yards.
    Part of it comes back to being as working through the 
requirements of each base is different. The shipyard at Pearl 
has some other historical factors they have to take into 
account. I actually walked through a building, they basically 
want to build a building in a building, so it looks like it was 
in 1941, but it will be a modern shop inside.
    That doesn't add that much, but it still comes back to 
being you have to get through the environmental wickets on that 
one. So there are a number of projects to where Pearl Harbor 
wants to follow what Portsmouth Naval Shipyard did, which was 
actually move the shops out around and have a flow through the 
yard, such that when things come off the boat, they go up, they 
are getting repaired, they are sequenced properly, and they 
flow back down. And that flow and sequence really depends upon 
the express intelligence of the leadership and the workforce of 
what is the best one.
    Pearl Harbor has laid out a number of ideas that we will be 
looking at in the next few years to move their basically shop 
around the yard and take advantage of some of those buildings. 
The dry dock is clearly one that there is a combination of 
fixing where the caisson goes for the well deck, and then they 
are actually looking at a combination of perhaps extending that 
dry dock as well. Both those are in the Navy review process 
right now and competing well.
    I can't tell you where they are at right now, but I saw 
both those, and saw the diagrams when I walked around with the 
shipyard commander and the workforce. I also saw a number of 
the young interns that were just, or not interns, apprentices 
hired, and talked to 14 of them as well. And their focus to the 
group that was asking about civilian careers, they have been 
hired. Of the 14, only two were fresh out of high school, the 
others had multiple jobs they have had before, but they are 
trying to find. And one man said I need a career that I can 
properly, you know, get paid, I will work hard and take care of 
my family.
    So the real focus was on excellence and their desire to 
work hard, and they had been on that side, have now been hired. 
We need to keep that going.
    Ms. Gabbard. Yes, thank you very much. And whether for you 
or either of your colleagues, if you can comment how the 
Federal hiring freeze has impacted shipyards generally and 
their ability to continue to deliver with the workload.
    Admiral Mulloy. What has been a slowdown has been the 
shipyard workers themselves on the wharf were immediately 
waiver given. The follow-on has been now working through the 
interstitials of, okay, I need human resource people to hire 
the next new person, I need to have certain planners done, I 
need to have what you call the backroom operations of the 
shipyard, which are extensive.
    And those really came to the fore, some of the members may 
remember, during the sequester period and then the follow-on 
furlough. Congress and the President gave a waiver to 
production activities. But very quickly, if you don't have the 
security guard or the crane operator, you can have all the 
mechanics you want, but you don't get productive work done.
    So they are kind of almost a living organization, having 
spent multiple times in my life in a shipyard, it is a living 
organization and so now we are working our way through the next 
level. But we identified what I would call the second and third 
levels of shipyard performance and those now waivers are coming 
in for that. But we are probably about 200 people behind what 
we were in our hiring plan to grow to the 33,000 authorized by 
Congress.
    Ms. Gabbard. There was one other issue that was brought up 
yesterday with regards to this topic, which is, even though the 
waiver was given for, I believe, the priority A, for the 
supervisors who have retired or who have left the force, even 
for internal transfers, the waiver does not apply, so they are 
having a problem with a shortage of supervisors even though 
they are able to hire, continue hiring, the supervisor 
positions are not even able to be filled internally.
    Admiral Mulloy. Yes, ma'am, I had not heard that, I 
appreciate your comment, I will go back and take that right 
back.
    Ms. Gabbard. Appreciate it. Look forward to working with 
you on that.
    Admiral Mulloy. We need the resources today because I am 
very interested with a particular love and having actually 
worked at Portsmouth Naval Shipyard as an ensign, and my in-
laws did and my wife did as well. I completely understand that, 
and I will take that right back.
    Ms. Gabbard. I appreciate it. Thank you.
    Mr. Wilson. And thank you very much, Congresswoman Gabbard.
    We now proceed to Congresswoman Martha McSally, of Arizona.
    Ms. McSally. Thank you, Mr. Chairman. Thank you, gentlemen 
for your testimony. I was Air Force so I will try and speak in 
your language here in my questioning.
    We had a briefing from the GAO last month saying that less 
than 30 percent of the ships made it through their maintenance 
schedules on time. So that sounds to me like you might need a 
new time schedule for those going into maintenance if more than 
70 percent, once they get in there, you are finding deeper 
problems and they are taking longer to go through their 
maintenance schedule.
    A concern in general, I echo concerns and frustrations 
about sequestration and the impact that it has had on you.
    As we are talking to different services, you know, the Air 
Force has come forward with a plan that is going to take until 
2028 to turn some of their readiness around. And I think their 
assumptions are actually a little too optimistic.
    Other than the OFRP, are you developing a detailed plan to 
address your way to get out of this readiness crisis, those are 
my words, that you are in? And when can we expect to see that 
plan?
    And the plan needs to based on good assumptions. 
Assumptions, again, that 70 percent of your ships are coming 
out late for scheduled maintenance, you know, there needs to be 
some new assumptions there. So is there a plan being developed 
to get you out of this hole? And is it based on realistic 
assumptions? And when do you think--I mean, we have heard you 
say after the FYDP [Future Years Defense Program], well, that 
could be, like, 2080. Like, what is the window, and when will 
we see a detailed plan?
    Admiral Mulloy. Ma'am, there are two parts. I would say is 
we are currently in a 60-day readiness review with the 
Secretary of Defense and part of that will actually be related 
to the PB, the President's budget 2018, that will be coming 
over probably in the May, June timeframe, it will lay out a lot 
more of the specifics that include our, do we need to hire more 
people at the shipyards? Do we need to adjust various items 
and, once again, along these readiness items? And then, where 
do we stand on aircraft?
    So that will be within the 2018 budget we will have the 
specifics of what we can do with the financing, the resources 
that we will have in 2018 and what arrives.
    I would comment on the GAO report is that, unfortunately, 
ships take a while when they go in. It would take us about 8 
years to get through the whole fleet, so we know some ships are 
late, there are some plans available, but every ship also ages 
differently.
    So, you know, I have not seen the number 70, I know a 
significant number. Although I would say, in this past year, a 
larger number of ships in the 2017, so far in 2017 as we ended 
2018, the number was closer to more than 50 percent were 
actually now coming on time because we have taken the support 
of Congress, rolled the money back into some of the planning 
purposes, that the 2017 and 2018 projections are no longer 
based upon, I would say, an assumption back in 2013 when those 
maintenance plans were developed.
    They are now better prepared. And let's say it was an 
average of 100,000 man-days for a ship to be done and we now 
took it, took 130,000, and we are now planning for in 2017, 
2018, 130,000 man-days. So I think we are better able to 
estimate the conditions of the ships, but it will take us 8 
years to get through the cycle of seeing every ship that we 
have done. That is why with the Navy with our one-third always 
deployed and a third ready to surge, you just can't get all the 
ships in.
    And we don't have the dry docks and the capacity to take 
every ship apart. It is a little bit different when we send 
airplanes off to depots. They can be gapped, whereas a fleet is 
that is who that asset is.
    Ms. McSally. Great, thanks. Just to clarify, though, aside 
from the OFRP and your inputs to the budget about dealing with 
the short-term readiness issues within the FYDP, are you 
developing a separate plan specifically to turn the readiness 
situation around, and how many years is it going to take and 
what the assumptions are?
    Admiral Mulloy. Ma'am, there is not another separate plan. 
We would be able to come over and talk about our real basis is 
OFRP. But then each area within NAVSEA [Naval Sea Systems 
Command] and NAVAIR have their long-term goals to get airplanes 
on the line or get the ships out.
    But the Navy readiness plan is based upon OFRP in all of 
our classes and getting those out there. There will not be a 
separate plan.
    Ms. McSally. Okay.
    Admiral Mulloy. We are eyeing on the readiness of the fleet 
to be just beyond this FYDP if we get the money expected in 
this next 5-year plan. Those dollars, except for ordnance, 
which is going to take a while, which is a collective Army, 
Navy, Air Force item of building ordnance, we expect to have 
shortly outside the FYDP, if the funds are there, to be able to 
restore to full readiness for the number of ships we have to 
have to be responsive, not just to meet the deployment plans.
    Ms. McSally. Okay, thanks. I want to, I only have a little 
bit of time left, but talk about aviation readiness. You know, 
I was a pilot myself. I am concerned about the push-pull 
factors. We are seeing it in all the services. Airlines are 
hiring, our Active Duty pilots are not flying that much. I have 
seen media reports saying you had up to 30 percent turning down 
department heads. These are some of the leading indicators that 
you are going to start having a problem, Class A mishaps. Can 
you just speak about your concerns or our way ahead related to 
the pilot readiness?
    Admiral Mulloy. Yes, ma'am. As our vice chief talked here 
in a hearing with the entire committee a month and a half ago, 
we have not seen quite the same number as the Air Force. But 
clearly, there are leading indicators out there.
    As he pointed was, pilots also join, and I am a submariner, 
so I can't tell you that, but I assume it was the same with you 
is, you are in this to fly to fly. We need to have the hours 
back and have the restoration of flying hours in the airplane 
so that pilots can. A commanding officer squadron who should 
have 12 airplanes typically does not get 12 airplanes until he 
goes to, as we call, Fallon, to start his pre-deployment 
training.
    We need to be able to bring that to the left to get the 
planes and get them the flying hours. That is why the readiness 
dollars are the most important. And we are very, very aware and 
looking at those indicators and very concerned. And the vice 
chief is an aviator and he personally is, day in and day out, 
working with the aviation enterprise on that one.
    Ms. McSally. Great, thanks. I am over my time. Thank you, 
Mr. Chairman.
    Mr. Wilson. And thank you, Congresswoman McSally.
    And as an indication of how much we appreciate you being 
here today and your service, we will have a second round.
    And I share the concerns of Congressman Kelly and 
Congresswoman McSally about the Budget Control Act, 
sequestration of 2013. How has the Navy adjusted to these 
irresponsible reductions? And can you provide, again, specific 
examples, such as number of ships, personnel?
    And each of you are invited to comment.
    Admiral Mulloy. Sir, I will start as an overarching one, 
being the arc between Department of the Navy budget officer, 
now the N-8. We laid in that $30 billion, which each year was a 
different number, which provides, as everyone has talked about, 
unpredictability, is, you don't know the number until 
Congress--well, the sequester happened and we lost $13 billion.
    Each of the 4 years since has been a number rolls out from 
Congress for Department of Defense and there is a ripple down 
to the Navy. I will tell you, in the current 2017 budget, a 
year and 4 months ago, in December of 2015, we had 
approximately 3 weeks to cut out $6.5 billion out of the 
Department of the Navy, $4.5 billion out of the Navy, of which 
$2 billion was out of readiness.
    So there is an example of, in the matter of 3 weeks, 
adjusting to a number that is now provided by Congress is that 
is your 2017, going in and then we will adjust it when we look 
on the Hill about what happens.
    We appreciate there is some stability. We actually had a 
number of items getting sequestered, but cutting $6.5 billion 
out of the Department of Navy in a matter of weeks causes some 
very hard choices. That is one example compared to, you know, 
2017 was basically slightly down.
    So where do we go on that one? And the Navy has been--we 
give a gold star to our shore guys. We have stressed shore 
because of the areas is shore has the longest term buildup to 
buy it back again, but it can also sustain compared to 
aircraft, submarines, which are the most sensitive to life and 
safety, surface ships, and then you build into shore.
    So when you have a 50-year life cycle on infrastructure, 
that is where you are going. So they were brought to the 
minimum possible. We looked at, in terms of aviation, 
maintaining what we had, but we also brought aircraft 
procurement down, we brought weapons procurement down. We 
slowed research and development. That would be like an 8 or 9 
percent cut to the Navy, research and development would be cut 
by 8 or 9 percent, other procurement Navy.
    So you phase in and you put the critical lines in, like the 
SSBN replacement program. The strategic missile program, that 
did not get any cuts in research and development or other 
procurement and planning. So you protect certain areas that you 
have to protect, but the bottom line is you are in a difficult 
issue where everyone has to step up and each group in the Navy 
would come up with I have to come up with some shortfall or we 
basically apply shortfalls to them and then work through those 
interstitials.
    So then in the end was, since shipbuilding was an area that 
we are already going down, we were approaching 271 back then, 
we weren't going to go any lower, so that is the one area in 
the budget that we said was the Navy has been through that 
cycle in the 1990s, and in the 2000s, we also gave up ships and 
came down to four a year. What that got us is 41 submarines in 
my future.
    If you gave me a trillion dollars right now, I cannot 
restore the submarine force to the size it should be. If we 
don't take action over the next 6 years, we will have a larger 
and deeper bathtub in large surface combatants than the 
submarine force had, because shipbuilding takes a while to 
build, so we did preserve it.
    Now, as we are looking now at this point at this juncture, 
Secretary Mattis has said readiness is the most important item; 
we are not growing more ships, but we are probably not going to 
cut any more either because that is a long-term investment.
    I would like to turn over to my two compatriots to talk 
about their areas. But as a global scale, that is how we 
balance, sir.
    Admiral Cullom. Sir, I would add that, as we did that in FY 
2013, we went through the sequestration, it showed up in a 
number of different areas. And I was monitoring this as we went 
through it, and, frankly, warned about some of these things 
back a couple years ago.
    But, for instance, aircraft, and the FRCs, the backlog of 
aircraft that grew during that period of time was pretty 
significant, and the work in process that we had, we brought 
things, we inducted engines and airframes into the FRCs, and 
then we had to let them sit because of the furlough.
    We eventually have been chewing through those things. And 
as Admiral Mulloy mentioned, everyone paid at the bank, and the 
shore certainly paid because we could afford to take that risk 
at that time there with less potential near-term impact on it.
    But additionally, even for the ships, the availabilities, 
and we talked about availabilities for ships and how those were 
impacted and the readiness of those ships that we have been 
using very hard, they didn't get everything done. When we 
brought those availabilities back, they didn't get a lot of 
things done that they should have gotten done. Well, that means 
that that next time they go in for that overhaul, that dry 
docking 8 years later, that is when the rest of that work has 
to be done.
    So that is part of the divots and the deficits that, to 
really get to reset, that we have had to go through.
    And then there is also a training deficit because we didn't 
fly. Well, the pilots didn't get their flight hours, and so 
that is a divot in their experience that we are trying to make 
up for as much as we can. And we owe it to them to do that if 
they are going to go out there on the pointy end of the spear.
    Admiral McCollum. And, Mr. Chairman, as Admiral Mulloy said 
about hard choices, and certainly the Reserve Component there 
have been some hard choices in terms of Reserve Component being 
a bill-payer in order to support the higher priorities and 
initiatives. I talked to most fleet commanders in the last 30 
days and every one of them has asked the Reserve Component to 
do more or to sustain current operations.
    And currently, we are only meeting about 31 percent of the 
demand signal of those fleet commanders, so that has sort of 
been a rolled-up net effect on the operational Reserve support.
    Mr. Wilson. And thank you.
    And, in fact, Admiral McCollum, I want to congratulate Task 
Force Marshall, which is training at Fort Jackson, and these 
are reservists who volunteer for ground duty around the world 
in combat zones, and it is a real reflection on the 
professionalism of the Navy Reserve.
    And my time is up, so I have got to proceed, of course, to 
Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Admiral McCollum, I have a question that has to do with the 
Reserves. How is Active/Reserve integration facilitated to 
ensure that, as an operational Reserve, you are able to call 
upon your sailors to meet requirements where gaps exist?
    Now, I was concerned because I was reading your testimony, 
you mentioned that this Reserve force is often relegated to 
training and operating with obsolete equipment and they cannot 
succeed under current conditions. You also further stated they 
are often underserved by the lack of resources available to 
them.
    So my question to you is, where are we today under those 
circumstances and how is the morale?
    Admiral McCollum. Congresswoman, thank you for that 
question. As we look at the demand signal that the Active Duty 
places upon us, we decide, do we have the capability, depending 
on what the specific demand is, to send trained and certified 
sailors to that specific location or to that unit? We are an 
integrated force, as I mentioned.
    Then we look at, what does it take for an individual to be 
trained and certified? Sometimes it is the predictability of 
when they go and it is on a glide slope that makes it very 
visible. And we ramp up the training that goes to that sailor 
to be on a consistent level of readiness that, when they 
arrive, they are at their max readiness.
    Other times, there is the surge, the request to respond on 
short notice. That is where we feel pressure because to be able 
to do that we have to maintain our sailors at a level of 
readiness, whether it is qualifications in weapons, whether it 
is coxswains on small boats who are trained to do that, they 
have to have proficiency to be able to do that. And that level 
of readiness requires funding to generate that capability to be 
able to respond when needed.
    And you put these two components together, then we make 
choices to say we are not at a state to respond, and then the 
Active Component makes the decision to figure out how we can 
find more funds to generate that response.
    Ms. Bordallo. And, Admiral, under those conditions, how is 
the morale then?
    Admiral McCollum. Despite those conditions, ma'am----
    Ms. Bordallo. It is good?
    Admiral McCollum. I would say it is outstanding.
    Ms. Bordallo. Good.
    Admiral McCollum. And like I mentioned earlier, the sailors 
are an inspiration. Sometimes it is near eye-watering to see 
them fight through the adversity of the strain of trying to 
achieve the level of readiness. But the morale is very high.
    Ms. Bordallo. That is good to hear. And hopefully the 
future is going to be much better.
    Admiral Mulloy, or no, it is for Admiral Cullom, I have a 
question. I understand that the Navy's OFRP does not take the 
maintenance cycles of supply ships into consideration. Now, how 
do you coordinate and synchronize the repair needs of these 
ships in order to ensure that the Navy can call upon them at a 
moment's notice?
    Admiral Cullom. Yes, ma'am, thank you for the question. A 
part of the fleet response plan that we are working through is 
incorporating our auxiliary ships, all of the ships that are in 
the CLF [Combat Logistics Force] force into that process, so 
that they will deploy with the units, that they will train with 
the units that they will actually deploy with. And the 
maintenance will be a part of that.
    Now, the maintenance requirements for those ships is a bit 
different than it is for the USS [United States Ship] ships by 
virtue of sometimes the operations that those ships do, they 
are out at sea for over 200 days a year in many case.
    And also the nature of some of the newer ships that we are 
bringing into that auxiliary force, the EPFs [Expeditionary 
Fast Transports] for instance, those new joint, high-speed 
vessels, as we used to call them, because their maintenance 
cycle is a bit different because of the nature of the hull and 
the fact that they have to go in for a dry-docking period every 
year.
    So fundamentally, there is a little bit of a difference 
with regard to that, but we are incorporating those things in 
and that is a part that the fleet commanders are actively 
looking at with the Military Sealift Command.
    Ms. Bordallo. Thank you. Mr. Chairman, I have just one 
statement to make, not a question.
    And that is for Admiral Mulloy. I stated in my opening 
statement about the FY 2017 NDAA passed in December included 
$9.5 million to enhance the dry-docking capabilities in the 
Western Pacific.
    So again, it is a small amount of money that will help the 
Navy to repair America while maintaining a forward presence in 
the Pacific region. So I am hoping that the three of you will 
keep us in mind and help us out in this situation. I think it 
is very important.
    Admiral Mulloy. Yes, ma'am. As we discussed in your office, 
if it is in the authorization act, as we look at the 
appropriations, if we are not in a yearlong CR, we will 
honestly take a very hard look at the direction of Congress as 
we always do, ma'am.
    Ms. Bordallo. Thank you very much. And I yield back, Mr. 
Chairman.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    And indeed, as we conclude, this is a special time to thank 
Admiral Cullom, Admiral Mulloy for your service. You will be 
able to look back, you were part of victory in the Cold War, 
peace through strength. Tens of millions of people in dozens of 
countries today are free that were not when you began your 
service.
    And we have had an opportunity to see the Baltic republics 
of Estonia, Latvia, Lithuania, to Slovakia, to Bulgaria, to 
countries that Congresswoman Bordallo and I visited, and 
Uzbekistan and Kyrgyzstan, the ``stans,'' all of these now have 
opportunities for persons to have fulfilling lives, that simply 
did not exist and even an opportunity for reform in Russia 
itself, for the people there to ultimately establish a free 
market democracy. So congratulations on your service.
    And then, Admiral McCollum, we were grateful to have your 
wife Leanna here, so she has certainly added to your service.
    And again, military families, what an exciting time 
hopefully that, as Congresswoman Bordallo pointed out, can be 
made positive for our Navy personnel.
    With that, I want to conclude. And I want to thank Ms. 
Dean, Commander Dean, for her service.
    We are adjourned.
    [Whereupon, at 9:32 a.m., the subcommittee was adjourned.]

?

      
=======================================================================




                            A P P E N D I X

                             March 16, 2017

   
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 16, 2017

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. WILSON

    Admiral Mulloy, Admiral Cullom, and Admiral McCollum. The Navy 
minimum standard for on-time accomplishment of organizational level 
planned maintenance, performed by the individual ship or shore 
command's organic personnel, has been 80 percent since program 
inception circa 1963. On-time accomplishment is one of many attributes 
used to assess the effectiveness of Navy commands' planned maintenance 
programs. The standard was set at 80 percent in recognition of ship's 
operations occasionally precluding planned maintenance accomplishment 
within its given periodicity, making 100 percent on-time accomplishment 
nearly impossible. The stated goal of Navy's planned maintenance system 
is to complete all planned maintenance on time as operational 
conditions permit to maintain the fleet at the highest possible level 
of operational readiness and safety.   [See page 9.]

                                  [all]
                                  
                                  
</pre></body></html>
